             HEARING BEFORE THE
       COMMITTEE ON APPROPRIATIONS
              SUBCOMMITTEE ON
FINANCIAL SERVICES AND GENERAL GOVERNMENT
       U.S. HOUSE OF REPRESENTATIVES

            “Budget Hearing with the
Treasury Inspector General for Tax Administration”




                  April 15, 2011

                 Washington, D.C.

                   Testimony of
         The Honorable J. Russell George
 Treasury Inspector General for Tax Administration
                              TESTIMONY OF
                    THE HONORABLE J. RUSSELL GEORGE
           TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                 before the
                      COMMITTEE ON APPROPRIATIONS
       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT
                     U.S. HOUSE OF REPRESENTATIVES

         “Budget Hearing with the Treasury Inspector General for Tax Administration”

                                        April 15, 2011

        Chairwoman Emerson, Ranking Member Serrano, and Members of the
Subcommittee, I thank you for the opportunity to testify on accountability over the
Internal Revenue Service (IRS) in administering the Nation’s tax laws. My comments
will focus on how the Treasury Inspector General for Tax Administration (TIGTA)
provides accountability for the IRS and oversight of its budget as well as the most
significant challenges currently facing the IRS.

       TIGTA plays a critical role in ensuring the accountability of the IRS. In
accordance with the Inspector General Act of 1978, as amended, we conduct
independent and objective audits, investigations, and reviews of IRS programs and
operations.1 TIGTA provides leadership and develops recommendations to promote
economy, efficiency, and effectiveness and to detect and prevent fraud, waste, and
abuse in IRS programs and operations. TIGTA reports the results of its investigations,
audits, and reviews semiannually to the Congress, the Secretary of the Treasury, the
IRS Commissioner, and the American people to maintain current awareness of the
programmatic and operational challenges facing the IRS. We refer criminal matters to
the United States (U.S.) Department of Justice and other law enforcement entities for
prosecution and also investigate and refer allegations of misconduct by IRS employees
and contractors to the IRS for administrative action. Appendix I provides a statistical
summary of selected TIGTA accomplishments from Fiscal Year 1999 to Fiscal
Year 2010.

       Another important way TIGTA provides accountability is through the identification
of the major challenges facing the IRS. The Reports Consolidation Act of 20002
requires TIGTA to summarize for inclusion in the Department of the Treasury

1
    5 U.S.C. App. 3 §§ 2(1), 4(a)(1).
2
    31 U.S.C. § 3516(d).

                                              1
Accountability Report our perspective on the most serious management and
performance challenges facing the IRS. This list of challenges forms the basis of our
audit work concerning IRS programs and activities. The Management and Performance
Challenges Facing the Internal Revenue Service for Fiscal Year 2011 memorandum is
included as Appendix II.

OVERVIEW OF THE IRS’S FISCAL YEAR 2012 BUDGET REQUEST

       The IRS is the largest component of the Department of the Treasury and has
primary responsibility for administering the Federal tax system. Since the Federal tax
system is a system that relies upon voluntary compliance, almost everything the IRS
does is in some way related to fostering compliance with tax laws. The IRS provides
taxpayer service programs that help millions of taxpayers to understand and meet their
tax obligations and administers enforcement programs aimed at deterring taxpayers
who are inclined to evade their responsibilities. The IRS is charged with vigorously
pursuing those who violate tax laws.

       The IRS must strive to enforce the tax laws fairly and efficiently while balancing
service and education to promote voluntary compliance and reduce taxpayer burden.
To accomplish these efforts, the proposed Fiscal Year 2012 IRS budget requested
appropriated resources of $13.3 billion.3 The total appropriations amount is an increase
of $1.138 billion, or approximately 9.4 percent, more than the Fiscal Year 2010 enacted
level. The budget request includes a net increase in staffing for the IRS of over 5,100
employees, to total over 100,500 IRS employees.

       The Administration seeks to increase funding over the Fiscal Year 2010 enacted
operating levels for all five appropriation accounts, ranging from 3 to 26 percent
increases (see following chart).




3
 The 2012 budget request also includes approximately $138 million from reimbursable programs and
$204 million from user fees for a total program operating level of $13.6 billion.

                                                 2
                       IRS Fiscal Year 2012 Budget Request Increase
                           Over Fiscal Year 2010 Enacted Budget
                                       (in Thousands)

                                        Fiscal Year      Fiscal Year
                                           2010             2012                              %
      Appropriation Account              Enacted          Request          $ Change        Increase
    Taxpayer Services                    $2,278,830        $2,345,133         $66,303         2.91%
    Enforcement                          $5,504,000        $5,966,619        $462,619         8.41%
    Operations Support                   $4,083,884        $4,620,526        $536,642       13.14%
    Business Systems
    Modernization                          $263,897          $333,600         $69,703       26.41%
    Health Coverage Tax Credit
    Administration                           $15,512          $18,029           $2,517      16.23%
    Total Budget Appropriated
    Resources                          $12,146,123 $13,283,907 $1,137,784                     9.37%

        Generally, the five appropriation accounts fund the following IRS tax
administration functions. The three primary appropriation accounts are Taxpayer
Services, Enforcement, and Operations Support. The Taxpayer Services account
provides funding for programs which focus on helping taxpayers understand and meet
their tax obligations, while the Enforcement account supports the IRS’s examination and
collection efforts. The Operations Support account provides funding for functions that
are essential to the overall operation of the IRS, such as infrastructure and information
services. Finally, the Business Systems Modernization account provides funding for the
development of a new taxpayer account database and investments in electronic filing,
and the Health Insurance Tax Credit Administration account supports the administration
of this credit.

ANALYSIS OF THE FISCAL YEAR 2012 BUDGET REQUEST

Changes to the Base

       Adjustment to Reach Fiscal Year 2011 President’s Budget Level4 – $402 million
increase (including a $123 million increase related to the Modernization appropriation).

4
 The initiatives included in the Fiscal Year 2011 budget submission are separate from the $839 million in
program increases included in the Fiscal Year 2012 budget submission.


                                                    3
The Fiscal Year 2012 Budget Request does not specify which initiatives are included in
the $402 million increase.

        Maintaining Current Levels – $86 million increase to fund the non-labor inflation
adjustments and an increase in Federal Employment Retirement System participation.
Non-labor inflation adjustments include rent, postage, supplies, and equipment. No
inflation adjustment is requested for pay in Fiscal Year 2012.

      Program Reinvestment – $1.5 million increase (one-time cost) to fund one-time
separation costs associated with the September 30, 2011, closure of the Atlanta
submission processing site. Increased use of electronic filing has led to the
consolidation of sites that process individual returns.

        These increases are offset by a decrease of $190 million in Efficiencies and
Savings (including a $1 million decrease related to the Modernization appropriation).
The four largest areas of cost savings include reducing information technology
infrastructure ($75 million decrease); reducing training, travel, and programs ($27.3
million decrease); increasing e-File savings ($22.4 million decrease); and non-recurring
savings ($22 million decrease).

Program Increases

       The Fiscal Year 2012 budget request includes program increases of $839 million.
This includes an increase of $52 million in the Operations Support appropriation for
costs related to maintenance of deployed modernization efforts. This increase is offset
by a corresponding decrease of $52 million for the Business Systems Modernization
(BSM) appropriation for Fiscal Year 2012.

       The largest component of this $839 million increase is $606 million related to
Enforcement Initiatives. The IRS remains committed to finding ways to increase
compliance and reduce the Tax Gap,5 while minimizing the burden on the vast majority
of taxpayers who pay their taxes accurately and on time.

       IRS Enforcement Initiatives – Increase of $606 million focuses on activities
       targeted at improving compliance through nine multi-year initiatives. These
       increases form the backbone of the IRS’s multi-year approach to make progress
       against the Tax Gap.

       Infrastructure Initiatives – Increase of $119 million focuses on enhancing
       employee security, developing disaster recovery system capability, and



5
 The Tax Gap is the difference between the estimated amount taxpayers owed and the amount they
voluntarily and timely paid each year.

                                                4
       developing systems to implement various provisions of the Patient Protection and
       Affordable Care Act of 20106 (Affordable Care Act).

       Taxpayer Service Initiatives – Increase of $114 million focuses on improving
       taxpayer service and the IRS.gov website.

       Business Systems Modernization Initiatives – Net Increase of $0 The initiative to
       continue migration from the aging tax administration system includes a $52
       million program increase for the Operations Support appropriation account for the
       operations and maintenance of deployed Modernization project releases.
       However, that increase is also subtracted from the BSM appropriation account,
       for a $0 net increase.

Business Systems Modernization

       The IRS is required to submit an annual BSM expenditure plan that justifies the
projects for which resources are requested. The Fiscal Year 2012 budget request
indicates a total BSM budget of $333.6 million. This funding will improve taxpayer
service and enforcement, and reduce the costs and risks of operating parallel tax
processing systems.7 The IRS plans to update and settle individual taxpayer accounts
in 24 to 48 hours with current, complete, and authoritative data, and plans to facilitate
expanded opportunities for compliance, increase analytical capabilities, and accelerate
the identification of fraudulent trends.

TIGTA SERVES THE AMERICAN PEOPLE BY ASSISTING CONGRESS IN
PROVIDING ACCOUNTABILITY FOR TAX ADMINISTRATION

       TIGTA assists the Congress in ensuring accountability for the IRS through its
audits, investigations, and reviews of IRS programs and operations. The IRS is a highly
complex organization that collects more than $2 trillion in tax revenue each year and
touches the lives of every American. As such, TIGTA’s oversight of IRS programs and
operations is multi-faceted, including audits, criminal and administrative investigations,
and other reviews. These reviews are designed to promote the economy, efficiency,
and effectiveness of tax administration and to protect the integrity of tax administration.




6
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
7
  The IRS operates parallel tax processing systems that require updates to all systems when tax
legislation is changed or updated. These parallel systems include Customer Account Data Engine
(CADE), CADE 2, and the Individual Master File.


                                                  5
Audit Oversight

       TIGTA audit reports provide IRS management with recommendations on ways to
improve their operations. These recommendations include enhancing management
practices and procedures, offering ways to better use agency funds, and questioning
the actual spending of funds. The following table lists the amounts of potential cost
savings8 and inefficient use of resources9 identified by TIGTA during Fiscal Year 2010.
The table is followed by recent examples of audit oversight involving erroneous and
improper payments.

      Fiscal Year 2010 Potential Cost Savings and Inefficient Use of Resources
Funds Put to Better Use                                     $2,818,631,262
Questioned Costs                                                  $412,527
Inefficient Use of Resources                                   $36,227,181
Cost Savings and Inefficient Use of Resources Total         $2,855,270,970

         The IRS administers appropriations which are much larger than its own budget.
These are the appropriations for refundable credits. Refundable credits can result in
refunds even if no income tax is withheld or paid; that is, the credits can exceed the
liability for the tax. The two largest refundable tax credits are the Earned Income Tax
Credit (EITC) and the Additional Child Tax Credit (ACTC). For the 2011 Filing Season,
the maximum EITC is $5,666; the ACTC is generally limited to 15 percent of earned
income in excess of $3,000.10 The appropriations for these credits in Fiscal Year 2010
were $54.7 billion for the EITC and $22.7 billion for the ACTC.

       The IRS continues to report that 23 percent to 28 percent of EITC payments are
issued improperly each year. In Fiscal Year 2009, this equated to $11 billion to
$13 billion in improper EITC payments, which is approximately the size of the IRS’s
entire operating budget. The IRS has made little improvement in reducing EITC
improper payments since it began reporting estimates of these improper payments to
the Congress in 2002. The IRS’s effort to balance its compliance/enforcement

8
  Potential cost savings includes both (1) funds put to better use defined as funds that could be used
more efficiently if management took actions to implement and complete recommended actions and (2)
questioned costs defined as those costs questioned because of an alleged violation of a provision of a
law, regulation, contract, or other requirement; a finding that such cost is not supported by adequate
documentation; or, an expenditure of funds for the intended purpose is unnecessary or unreasonable.
9
  Values of efficiencies gained from recommendations to reduce costs while maintaining or improving the
effectiveness of specific programs.
10
   The ACTC is the refundable portion of the Child Tax Credit. This credit phases out for taxpayers
depending upon their income level. Taxpayers with earned income of less than $3,000 may be eligible
for a refundable credit if they have three or more qualifying children and have paid Social Security taxes
that exceed their EITC.

                                                     6
resources among all income groups and its inability to implement alternative processes
to address erroneous claims has hindered the IRS’s ability to reduce the billions of
dollars in erroneous claims for refundable credits.

       As we reported in December 2008, the IRS has developed processes to identify
successfully billions of dollars in erroneous EITC payments. However, the IRS did not
have the resources to address many of these cases. The IRS needs to develop an
alternative process that is less costly than an audit to protect revenue associated with
erroneous EITC claims.11

        In 2009, we reported a significant increase in ACTC claims by filers who were
unable to obtain a Social Security Number or were not eligible to receive a Social
Security Number. These individuals were not authorized to work in the U.S. They filed
tax returns using an Individual Taxpayer Identification Number (ITIN).12 The refundable
credit claims made by these filers have grown substantially. For Tax Year13 2000, these
individuals received $62 million in ACTCs. For Tax Year 2007, these individuals
received almost $1.8 billion in ACTCs.

        Prior to 1996, filers using an ITIN were entitled to claim the EITC. However,
concerns were raised by the Government Accountability Office, the IRS, and the
Congress regarding noncompliance with EITC requirements. The law was
subsequently changed to deny the EITC to individuals who file a tax return without a
Social Security Number that is valid for employment.14 As such, filers using an ITIN are
not eligible for the EITC. We believe the situation today with the ACTC is similar to the
situation which preceded the prohibition of the EITC to ITIN filers. Billions of dollars in
ACTCs were provided to ITIN filers without verification of eligibility, and IRS employees
have raised concerns about the lack of an adequate process for identifying and
addressing improper claims.15



11
   The Earned Income Tax Credit Program Has Made Advances; However, Alternatives to Traditional
Compliance Methods Are Needed to Stop Billions of Dollars in Erroneous Payments (Reference Number
2009-40-024, dated December 31, 2008).
12
   An Individual Taxpayer Identification Number (ITIN) is available to individuals who are required to have
a taxpayer identification number for tax purposes, but do not have and are not eligible to obtain a Social
Security Number because they are not authorized to work in the U.S.
13
   The 12-month period for which tax is calculated. For most individual taxpayers, the tax year is
synonymous with the calendar year.
14
   The Social Security Administration will issue a Social Security Card that notes “NOT VALID FOR
EMPLOYMENT” to individuals from other countries who: (1) are lawfully admitted to the U.S. without work
authorization but with a valid nonwork reason for needing as Social Security Number, or (2) need a
number because of a Federal law requiring a Social Security Number to get a benefit or service.
15
   Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify
or Limit Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).

                                                     7
        The change in the law was made prior to the establishment of the ACTC.
However, the language of the law is such that it could be interpreted to apply to the
ACTC or any refundable credit. It prohibits individuals residing without authorization in
the U.S. from receiving most Federal public benefits with the exception of certain
emergency services and programs. Nonetheless, IRS management’s view is that the
law does not provide sufficient legal authority for the IRS to disallow the ACTC to ITIN
filers. In addition, the Internal Revenue Code does not require a Social Security
Number to claim the credit and does not provide the IRS math error authority to deny
the credit without an examination.16 As such, legislation would be needed to clarify
whether or not refundable tax credits such as the ACTC may be paid to filers without a
Social Security Number and, if these credits may not be paid, to provide the IRS math
error authority to disallow associated claims for the credits. In our March 2009 report,
we estimated that allowing the ACTC only to those filers who are eligible to live and
work in the U.S. (i.e., those with a Social Security Number that is valid for employment)
would reduce Federal outlays by approximately $1.8 billion annually.17 However, recent
analysis shows that claims for this credit by ITIN filers have increased substantially. In
Processing Year18 2010, ITIN filers received $4.2 billion in ACTCs.

       The IRS’s Taxpayer Assurance Program, formerly known as the Questionable
Refund Program, is set up to identify and stop fraudulent refunds. As of April 17, 2010,
the IRS identified 249,185 tax returns with $1.51 billion being claimed in fraudulent
refunds and was able to prevent the issuance of $1.48 billion (98 percent) of the
fraudulent refunds claimed. This represented a 50 percent increase in the number of
fraudulent tax returns identified in the same period of the previous processing year.
This increase is in part the result of the Accounts Management function effectively
monitoring its case workload and adjusting thresholds during the filing season to
increase the identification of potentially fraudulent tax returns for screening. For
example, it lowered tolerances for some of its criteria to increase the number of
potentially fraudulent tax returns for screening.

        While the IRS has shown a significant increase in the number of fraudulent tax
returns identified and refunds stopped, it needs expanded and expedited access to
wage and withholding information during the filing season. This information would
significantly increase the IRS’s ability to efficiently and effectively verify wage and
withholding information reported on a tax return at the time a tax return is processed.

16
   Math error authority is a program in which the IRS contacts taxpayers through the mail or by telephone
when it identifies mathematical errors or mismatches of taxpayer information that would result in a tax
change.
17
   Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify
or Limit Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
18
   The year in which tax returns and other tax data are processed by the IRS.

                                                    8
Our analysis of the 151,776 Tax Year 2008 tax returns sent to an examiner for
screening and then released for processing identified that 96,178 (63 percent) of these
tax returns had valid wages reported. TIGTA estimates that the IRS needlessly
expended 22,110 hours screening these tax returns. Currently, the law limits the IRS’s
access to the U.S. Department of Health and Human Services’ wage information. In
addition, processes have not been developed to expedite the use of wage and
withholding data received from the Social Security Administration. We believe that
legislation is needed to expand the IRS’s access rights to the U.S. Department of Health
and Human Services wage information. We also recommended that the IRS obtain
wage information for paper tax returns with EITC claims and develop a process to
expedite the availability of wage and withholding information received from the Social
Security Administration. The IRS agreed with most of our recommendations, but only
agreed to examine the benefits of obtaining wage information for paper tax returns with
EITC claims.19

        In our review of the IRS’s processes to identify potentially fraudulent tax returns
for screening, TIGTA found that the majority of tax returns the IRS identified as being
filed by prisoners were not screened to assess fraud potential. Our review identified
that 253,929 (88 percent) of the 287,918 tax returns filed by prisoners as of March 24,
2010, were not selected for screening. Of those tax returns not screened,
48,887 individuals had no wage information reported to the IRS by employers. These
48,887 prisoners claimed refunds totaling more than $130 million, including EITC claims
of $78.5 million. Some of these refunds may have been stopped by other compliance
activities. For example, we determined that the IRS prevented the issuance of nearly
$18.1 million in EITC claims for 4,532 of the 48,887 prisoner tax returns.20

       Further, our review of the IRS’s compliance with the Inmate Tax Fraud
Prevention Act of 200821 found that, as of October 2010, the IRS had not completed
required agreements to allow the IRS to disclose prisoner tax return information to
prison officials. As a result, no information has been disclosed to either the Federal
Bureau of Prisons or State Departments of Corrections. We also found that the
Calendar Year22 2009 Report to Congress on prisoner fraud is incomplete. The report
stated that the IRS identified 44,944 fraudulent prisoner tax returns during Calendar
Year 2009. However, the processes the IRS uses to identify prisoner tax returns cause
the IRS to understate the amount of prisoner fraud. Our review of the process used by


19
   Expanded Access to Wage and Withholding Information Can Improve Identification of Fraudulent Tax
Returns (Reference Number 2010-40-129, dated September 30, 2010).
20
   Ibid.
21
   Pub. L. No. 110-428, 122 Stat. 4839, (codified as amended at 26 U.S.C. Section 6103 (k)(10)).
22
   Time period beginning of January 1 of a given year and ending on December 31 of the same year.

                                                  9
the Criminal Investigation Division to compile the 2009 prisoner data file identified a lack
of managerial oversight to ensure the accuracy and reliability of this file.

       TIGTA recommended that the IRS work with the Department of the Treasury to
seek legislation to extend the period of time the IRS has to disclose prisoner tax return
data to the Federal Bureau of Prisons and State Departments of Corrections. We have
also made a number of other recommendations related to prisoner fraud, which include
ensuring all tax returns filed by prisoners are processed through the Electronic Fraud
Detection System and receive a prisoner indicator, revising prisoner filters to validate
wages and withholding associated with prisoners incarcerated for the year in which the
tax return is filed claiming a refund, and developing a process to assess the reliability of
data received from Federal and State prisons. The IRS partially agreed to our
recommendations, but work remains before the IRS is fully in control of this issue.23

Investigative Oversight

        TIGTA protects Federal tax administration and holds the IRS accountable
through investigative initiatives focused on three core components that expose the IRS
to risk: employee integrity; employee and infrastructure security; and external attempts
to corrupt tax administration. Our statutory mandate is substantially broader than that
which applies to most Offices of Inspector General. While all Offices of Inspector
General combat fraud, waste, and abuse, TIGTA is also statutorily charged with
protecting the integrity of Federal tax administration. A key aspect of protecting Federal
tax administration is the oversight and investigation of IRS employees and contractors.

       Integrity lapses by IRS employees, real or perceived, erode public trust in the
IRS’s ability to enforce tax laws effectively, efficiently, and in the best interest of the
Nation. TIGTA investigates the unauthorized access of tax information (UNAX) or
disclosure of taxpayer information, bribery, extortion, theft of Government property and
taxpayer remittances, taxpayer abuses, financial fraud, and misuse of IRS computer
systems. One example of a UNAX investigation is an IRS employee in Kentucky who
accessed the accounts of at least 202 taxpayers without authorization, all but five of
whom were celebrities, spouses of the celebrities, sports figures, and well-known
individuals.24 Another example is a supervisory IRS employee who exceeded her
authorized access to IRS computers approximately 250 times for private financial gain. 25



23
   Significant Problems Still Exist With Internal Revenue Service Efforts to Identify Prisoner Tax Refund
Fraud (Reference Number 2011-40-009, dated December 29, 2010).
24
   TIGTA September 2008 Semiannual Report to Congress, page 3.
25
   TIGTA September 2006 Semiannual Report to Congress, page 32.

                                                    10
       A key characteristic of UNAX cases is the opportunity for the investigation to lead
to the discovery of other violations. For example, a UNAX investigation in New York
was begun based on an internal lead of an IRS employee inappropriately accessing
family members’ IRS records. Ultimately, the IRS employee was charged with stealing
Government funds totaling $160,863 and fraud in connection with computers.26

       Bribery is also a serious risk for the IRS and a serious concern to TIGTA. If
unchecked, bribery and extortion would substantially undermine the integrity of Federal
tax administration and could lead to the growth of the Tax Gap. An example of a bribery
investigation is a taxpayer who offered a $600,000 and a 2003 BMW 745LI to an IRS
revenue officer to abate all outstanding tax liabilities.27 A second example of bribery
investigation is a taxpayer who paid $30,000 in bribe monies to a revenue agent to zero
out the tax liability.28 An example of an extortion investigation involved an IRS revenue
agent attempted to extort $9,700 in cash from a taxpayer in order to make a tax liability
go away.29 Another example of an extortion investigation involved an IRS revenue
agent who attempted to extort $5,000 from a taxpayer in exchange for a no change
audit result.30

         TIGTA promotes employee integrity by conducting proactive investigative
initiatives to detect criminal and administrative misconduct in the administration of IRS
programs. Additionally, TIGTA special agents conduct awareness presentations to
remind IRS employees of our oversight responsibility. These presentations help
employees identify ways in which they can prevent fraud, waste, and abuse.

Procurement Fraud Oversight

         TIGTA is continuing to address the risk of financial loss due to procurement-
related fraud and is increasing efforts to identify and prosecute offenders who would
cheat the American taxpayer. TIGTA is dedicated to ensuring that contractors working
for the IRS are scrutinized, and we will not tolerate any scheme that denies the
American people the best value for their tax dollars. We are launching new strategic
initiatives to detect and deter fraud, waste, and abuse in IRS procurements. As of
February 11, 2011, the IRS had 891 active procurements worth approximately $31.5
billion. It is estimated that five percent of an organization’s annual revenue is at risk of



26
   District Court of New York, Indictment filed on December 13, 2010.
27
   District Court of California, Indictment filed on October 2, 2008.
28
   District Court of California, Indictment filed on April 7, 2010.
29
   TIGTA September 2010 Semiannual Report to Congress, page 44.
30
   United States Attorney’s Office, Southern District of New York press release.

                                                    11
fraud.31 As part of our oversight responsibility, TIGTA has recently realigned its
resources to enhance its investigation and audit efforts in the procurement fraud area.

       The Office of Investigations Procurement Fraud Division has had ongoing efforts
addressing multiple aspects of procurement fraud. For example, they have initiated
investigations and expanded their outreach and education with IRS procurement
personnel to educate them on potential fraud indicators. Their efforts have been
increasingly successful, as court ordered settlements on procurement fraud cases have
grown from approximately $18 million in Fiscal Year 2007 to almost $157 million in
Fiscal Year 2010. These results have been achieved with a relatively small staff.
Compared to all TIGTA Office of Investigations’ financial recoveries, the two percent of
TIGTA agents investigating procurement fraud brought in 59 percent of the recoveries.
During Fiscal Year 2010, our Procurement Fraud Division participated in investigations
that have resulted in settlements of more than $156 million to the Department of the
Treasury. In one example, TIGTA worked with the Department of Justice, the General
Services Administration, and other Federal agencies to investigate kickbacks and
defective pricing schemes by the EMC Corporation and related Government
contractors, which resulted in the corporation’s repaying $87.5 million to the Department
of the Treasury.32

       The procurement fraud investigations have focused primarily on IRS
procurements that originate at the national level. However, half of all IRS contracts
originate in and are administered by the IRS’s four regional procurement centers. To
address this additional area of high risk, TIGTA’s Procurement Fraud Division has
developed a pilot program that will station agents at the four centers to develop
investigations and audit referrals. The pilot program will initially place one agent at the
IRS Dallas Procurement Center. If given additional resources, the other procurement
center sites (Atlanta, New York, and San Francisco) will be staffed. Increased physical
interaction and visibility of procurement fraud agents will increase investigations and
audits, legal actions, recoveries, and will ultimately act as a deterrent to procurement
fraud in the IRS.

       The Office of Audit has focused its efforts regarding procurement fraud on three
areas: invoice verification reviews; acquisition program reviews and non-contract
acquisitions; and information technology procurements. Several referrals to the Office
of Investigations have been made as a result of these reviews. The Office of Audit has

31
   The Association of Certified Fraud Examiners Report to the Nation in 2010 estimated that organizations
lose 5 percent of their annual revenues to (employee) “occupational” fraud and abuse. The term
“occupational fraud” may be defined as the use of one’s occupation for personal enrichment through the
deliberate misuse or misapplication of the employing organization’s resources or assets.
32
   TIGTA September 2010 Semiannual Report to Congress, page 5.

                                                   12
recently increased its focus on procurement fraud by expanding ongoing reviews of
systems development and other technology services (e.g., maintenance contracts) to
look for potential fraud indicators or fraud risks. The Office of Audit is also developing a
cross-cutting procurement fraud audit strategy to support the conduct of audits and
issuance of reports focusing on procurement fraud detection and deterrence.

        During the course of these efforts, TIGTA has also identified systemic
weaknesses in IRS procurement, which leave the IRS vulnerable to fraud. One
example of a systemic weakness is the IRS’s method for assigning a contracting
officer’s technical representative (COTR) to manage and oversee IRS contracts.
COTRs are assigned contracts irrespective of their access to the deliverables or
technical expertise. In one investigation, a COTR resubmitted invoices totaling
approximately $600,000, which had already been paid the prior year. Another example
of a systemic weakness is COTRs being directed by their supervisors to accept invoices
for payment when those COTRs do not possess the technical knowledge and skills to
determine whether the contractor actually delivered the product. In one investigation,
the COTR accepted information technology-related invoices relying solely on the
contractor’s word that the work had been completed. TIGTA also conducted an audit of
COTRs in 2009 and identified many of the same vulnerabilities and control weaknesses.
We made several recommendations to the IRS to strengthen the COTR position.

SELECTED MAJOR CHALLENGES FACING THE IRS

       As the IRS continues to deliver multiple programs and services to the American
public, it faces a number of significant challenges:

Security

       Concurrent with the IRS’s monitoring of threats to its employees and facilities and
from international criminals, the IRS must also remain vigilant with respect to computer
security, particularly as it relates to safeguarding the privacy of confidential taxpayer
information. The IRS is an attractive target for criminals who intend to commit identity
theft by stealing Personally Identifiable Information33 for their own financial gain or for
hackers seeking to attack and disrupt the IRS’s operations by exploiting security
weaknesses within the IRS’s computer architecture. According to the IRS’s Fiscal
Year 2010 Data Book, the IRS received more than 230 million tax returns, of which
141 million returns were from individual taxpayers. All of these taxpayers essentially
entrust the IRS with their sensitive financial and Personally Identifiable Information that

33
  This is information that can be used to distinguish or trace an individual’s identity, alone or when
combined with other personal or identifying information.

                                                     13
are processed by and stored on IRS computer systems. To support and encourage
voluntary compliance with tax filing requirements, the IRS has a fiduciary responsibility
to ensure that sensitive data in its possession is protected from inadvertent or deliberate
misuse, improper disclosure, destruction, and that computer operations supporting our
Nation’s tax administration system are secured against disruption or compromise.

       To help protect taxpayers’ Personally Identifiable Information, the IRS has
implemented a plan to reduce its use of Social Security Numbers. However, as we
reported in August 2010, it will not be eliminating or reducing the use of taxpayers’
Social Security Numbers in the immediate future.34 The IRS focused first on internal
forms using Social Security Numbers and eliminating employees’ Social Security
Numbers from its systems. The IRS has many systems, notices, and forms that use
Social Security Numbers that require significant analysis before Social Security Number
use can be eliminated or reduced. As the IRS moves forward to reduce and eliminate
the use of taxpayer Social Security Numbers, it needs to improve internal controls to
ensure all planned actions are appropriately and timely accomplished. The IRS needs
to maintain a complete list of systems, notices, and forms for monitoring purposes. It
also needs to ensure milestones are established and updated when necessary. We are
currently conducting an audit of the Disclosure Notification Process to determine if the
IRS is making appropriate decisions to promptly and properly notify taxpayers of
inadvertent disclosures of their Personally Identifiable Information, including tax return
information.

       The IRS has many processes and regulations that protect taxpayer information,
but there are instances when taxpayer information is inadvertently disclosed. When this
happens, if the IRS determines that there is a significant risk of identity theft or other
harm, it must notify the taxpayer that his or her Personally Identifiable Information has
been inadvertently disclosed. A recent report illustrates the importance of reducing the
use of Personally Identifiable Information such as Social Security Numbers. We
reported that during 2009, there was an increase in reports of potential disclosure of
Personally Identifiable Information.35 Inappropriate disclosure of Personally Identifiable
Information can place individuals at a higher risk of identity theft and may erode public
confidence in the Nation’s tax system, which is built upon the principle of voluntary
compliance with the provisions of the tax code. We have also reported that the IRS
could improve the way it monitors security weaknesses identified at State government



34
   Target Dates Have Not Been Established to Eliminate or Reduce Taxpayer Social Security Numbers
From Outgoing Correspondence (Reference Number 2010-40-098, dated August 13, 2010).
35
   Revised Procedures Preceded Significant Increases in Reports of Potential Disclosure of Personally
Identifiable Information (Reference Number 2010-IE-R005, dated May 18, 2010).

                                                  14
agencies and ensure the timely and effective correction of these weaknesses. 36 In
another review, we found that current IRS processes were not effective at identifying all
contractors handling IRS taxpayer data who may have been subject to required security
reviews. Further, we found that current processes were not followed to ensure
weaknesses identified at contractor facilities were timely corrected.37

        The IRS initially reported its computer security material weakness38 in 1997.
Their original declaration of the computer security material weakness consisted of five
material weaknesses: computing center security; field office security; service center
security; other IRS facility security; and system certification. In October 2002, the IRS
combined these five security material weaknesses that were primarily based on facility
types into one material weakness. Its goal was to address computer security from an
enterprise-wide approach and to better align the weakness areas with the new
organizational structure. The IRS further categorized the computer security material
weakness into nine areas: 1) network access controls; 2) key computer applications
and system access controls; 3) software configuration; 4) functional business,
operating, and program units’ security roles and responsibilities; 5) segregation of duties
between system and security administrators; 6) contingency planning and disaster
recovery; 7) monitoring of key networks and systems; 8) security training; and
9) certification and accreditation. The IRS has closed the segregation of duties between
system and security administrators, security training, and certification and accreditation
components. All other components remain open.

       During Fiscal Year 2010, the IRS requested that TIGTA validate the IRS’s
closure of the functional business, operating, and program units’ security roles and
responsibilities component of the computer security material weakness. Our review of
the IRS’s completed actions on this component found that the IRS did not effectively
complete four of its six corrective action objectives. Specifically, the IRS did not:
1) document all information technology (IT) security roles and responsibilities in the
Internal Revenue Manual; 2) develop and document day-to-day IT security procedures
and guidelines; 3) properly conduct compliance assessments to test IT procedures; and
4) establish effective metrics for measuring compliance.39

36
   While Effective Actions Have Been Taken to Address Previously Reported Weaknesses in the
Protection of Federal Tax Information at State Government Agencies, Additional Improvements Are
Needed (Reference Number 2010-20-003, dated November 10, 2009).
37
   Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or Disclosure
(Reference Number 2010-20-051, dated May 18, 2010).
38
   The Department of the Treasury has defined a material weakness as “shortcomings in operations or
systems which, among other things, severely impair or threaten the organization’s ability to accomplish its
mission or to prepare timely, accurate financial statements or reports.”
39
   More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of the Computer
Security Material Weakness (Reference Number 2010-20-084, dated August 26, 2010).

                                                    15
       Computer security weaknesses also affect the IRS’s financial systems, which do
not comply with the Federal Financial Management Improvement Act of 1996.40 The
IRS informed TIGTA in 2010 that it does not believe it will become compliant until
approximately November 2014, pending the successful implementation of its strategy to
modernize the processes used to account for the records of individual taxpayers. 41

       The IRS is, however, making steady progress over information security. For
example, one of the major trends affecting the IRS is the “explosion in electronic data,
online interactions, and related security risks.”42 Another example of the IRS’s
commitment toward information security is the IRS’s IT Security Program Plan, issued in
September 2009. The Plan serves as a roadmap and a basis for benchmarking
information security performance toward attaining security objectives. Senior IRS
leaders will be able to use the IT Security Program Plan as input to their strategic
business planning process.

        All Federal Government agencies are required to establish and implement
security controls on their computer systems. In addition, the Federal Information
Security Management Act (FISMA)43 requires agencies to report to the Office of
Management and Budget (OMB) and the Congress on the effectiveness of their
information security program and practices. During the 2010 reporting period, we
determined that the IRS’s information security program was generally compliant with the
FISMA legislation, OMB information security requirements, and related information
security standards. Specifically, the IRS met the level of performance for certification
and accreditation, incident response and reporting, and remote access management.
While the IRS information security program is generally compliant with the FISMA
legislation, the program was not fully effective as a result of conditions identified in
configuration management, security training, plans of action and milestones, identity
and access management, continuous monitoring management, contingency planning,
and contractor systems/financial audit.




40
   Pub. L. No. 104-208, 110 Stat. 3009, (codified in a note to 31 U.S.C. § 3512).
41
   Measurable Progress Has Been Made in Addressing Federal Financial Management Improvement Act
Noncompliance; However, Significant Challenges Remain (Reference Number 2010-10-065, dated
June 4, 2010).
42
   IRS Pub. 3744, IRS Strategic Plan 2009-2013 (April 2009) page 9.
43
   Pub. L. No. 107-347, 116 Stat. 2899 (2002), (codified as amended in 44 U.S.C. § 3541–3549).

                                               16
The Implementation of Health Care Poses Multiple Challenges for the IRS

         At least 42 of the 514 Patient Protection and Affordable Care Act of 2010
(Affordable Care Act)44 provisions add to or amend the Internal Revenue Code, and at
least eight require the IRS to establish new operations. Taken together, these
provisions represent the largest set of tax law changes in 20 years. The Affordable
Care Act contains $438 billion worth of revenue provisions in the form of new taxes and
fees. It also contains credits, which provide incentives for medical research and for
businesses to offer employees health care insurance. Additionally, new reporting
requirements have been established for certain business transactions. The Affordable
Care Act further imposes penalties administered through the tax code for individuals
and businesses that do not obtain health coverage for themselves or their employees.
Other provisions raise revenue to help pay for the overall cost of health insurance
reform.

       Certain aspects of implementing health care reform are of concern for the
security risks they may pose to IRS employees and infrastructure. Historically,
implementation of a new Government program increases the risk of new avenues for
fraud, waste, and abuse. The number and type of risks are typically proportional to the
size and complexity of the program. Due to the size and nature of the program, the
potential for new types of fraud is present with health care reform.

        To address these risks, TIGTA has developed an oversight strategy to evaluate
the IRS’s planning and implementation of the Affordable Care Act provisions. Some
provisions required immediate implementation. We have initiated reviews of the
implementation of the Small Business Health Care Tax Credit as well as the Qualifying
Therapeutic Discovery Project. Our reviews of the IRS’s overall implementation plans
will include new and expanded operations and information systems, as well as the IRS’s
development of the forms, publications, and outreach necessary to implement
provisions as they become effective. While many of the provisions do not take effect for
some time, the IRS’s efforts to implement these provisions must start well in advance.

Risks Continue with Modernization Efforts

      BSM is a complex and costly effort to modernize IRS technology and related
business processes. It involves integrating thousands of hardware and software
components while replacing outdated technology and maintaining the current tax
system. The IRS originally estimated that the BSM effort would last up to 15 years and

44
  Patient Protection and Affordable Care Act (Pub. L. No. 111-148, 124 Stat. 119 (2010), (as amended
by the Health Care and Education Reconciliation Act of 2010 (Pub. L. No. 111-152, 124 Stat. 1029)).

                                                  17
incur contractor costs of approximately $8 billion. However, due to receiving less
funding than initially anticipated and having difficulties in managing contractor work, the
IRS has not completed as many modernization projects as planned.

        In 1995, after encountering numerous problems, the IRS declared the
modernization efforts as a material weakness under the Federal Managers’ Financial
Integrity Act (FMFIA)45 and established a control system to manage the necessary
improvement processes. In 1997, the IRS established BSM and began improving the
controls and processes used to direct and manage current modernization activities.
The current BSM has received $3.24 billion for contractor services, plus an additional
$474 million for internal IRS costs. Since that time, BSM has established a
comprehensive process to address management controls in 15 key areas. This
includes identifying gaps and weaknesses, establishing corrective actions, monitoring
progress, and identifying continuous improvement opportunities.

       BSM is intended to address the Congress’s interest in improving taxpayer
service, including issuing faster refunds; offering expanded electronic filing capability;
delivering web-based services for tax practitioners, taxpayers, and IRS employees; and
providing IRS employees with faster and improved access to taxpayer account data.

      However, the IRS is at a critical junction in its BSM efforts with respect to the
demands for achieving success and has refocused BSM to deliver the modernized
systems sooner. Based on our annual assessments, TIGTA has formulated four
primary challenges the IRS must overcome to be successful:

          Implementing planned improvements in key management processes and
          committing necessary resources to enable success;
          Managing the increasing complexity and risks of BSM;
          Maintaining the continuity of strategic direction with experienced leadership; and
          Ensuring effective management of contractor performance and accountability.

        While the IRS has made recent progress, we believe that these four challenges
still need to be met to achieve program success. I am encouraged by the actions the
IRS has planned and taken to refocus BSM; however, we believe the IRS should
consider the overall BSM efforts a material weakness at this time.




45
     31 U.S.C. §§ 1105, 1113, 3512 (2006).

                                               18
Tax Gap Challenges Continue

        Another serious challenge confronting the IRS is the Tax Gap, which, as I noted
earlier, is defined as the difference between the estimated amount taxpayers owed and
the amount they voluntarily and timely paid for a tax year. Despite an estimated
voluntary compliance rate of 84 percent and IRS enforcement efforts, a significant
amount of income remains unreported and unpaid. The IRS estimated the gross Tax
Gap for Tax Year 2001 – the most current figures to date – to be approximately
$345 billion. The IRS also faces significant challenges in obtaining complete and timely
compliance data and in developing methods necessary to interpret the data. Even with
improved data collection, the IRS needs broader strategies and more research to
determine what actions are most effective in addressing taxpayer noncompliance. The
IRS’s strategy for reducing the Tax Gap is largely dependent on funding for additional
compliance resources as well as legislative changes.

       TIGTA continues to assess the IRS’s efforts to address the Tax Gap.
Underreporting of taxes, which is comprised of four major components (individual
income tax, employment tax, corporate income tax, and estate and excise taxes), is
estimated at $285 billion and accounts for the largest portion of the Tax Gap. Overall,
the underreporting of individual income tax and employment tax constitutes more than
70 percent of the gross Tax Gap. The misclassification of millions of employees as
independent contractors is a nationwide problem that continues to grow and contribute
to the Tax Gap. In a report issued in Fiscal Year 2010,46 we determined that the IRS
has opportunities to enhance compliance in its Employment Tax Program by: 1) taking
measures to ensure employment tax forms are not misused to avoid paying taxes, and
2) regularly sharing the results of worker classification examinations between IRS
compliance functions to ensure the greatest possible use of the agency’s resources
when addressing the underreporting Tax Gap. Our audit identified more than
74,000 taxpayers who may have avoided paying approximately $26 million in Social
Security and Medicare taxes in Processing Year 2008.

       Individual Retirement Accounts (IRA) are a key tax-preferred way for individuals
to save for retirement and are an important way for individuals to roll over savings from
pension plans. TIGTA’s review of Tax Years 2006 and 2007 IRA information showed
that individual noncompliance with IRA contribution limits and minimum distribution
requirements continued to grow since the previous review. TIGTA identified potential
revenue losses associated with:


46
  Employment Tax Compliance Could Be Improved With Better Coordination and Information Sharing
(Reference Number 2010-30-025, dated March 23, 2010).

                                               19
        295,141 individuals improperly making excess contributions totaling $812 million
        for Tax Year 2006 and $757 million for Tax Year 2007. Estimated tax revenue
        losses are $94.2 million in excise tax47 and $17.6 million in income tax48 for these
        two tax years.
        255,498 individuals not taking required minimum distributions totaling
        $348 million for Tax Years 2006 and 2007. The estimated tax revenue loss is
        $174 million in excise tax for these two tax years.49

        TIGTA recommended that the IRS develop a service-wide strategy to address
retirement provision noncompliance. IRS management agreed that a service-wide
strategy is warranted. Senior IRS officials agreed to share responsibility for the
development of this long-term strategy. This strategy will not only address compliance,
but will also include plans for outreach and guidance for individual taxpayers and
employee plan organizations.50

       Estimates by the IRS show that the underreporting of income by sole proprietors
constituted $68 billion of the $345 billion Tax Gap in 2001. TIGTA evaluated closed
correspondence audits of individual returns reporting sole-proprietor operations and
found that significant tax issues were not addressed during these audits.51 Sole
proprietors who underreport their income can create an unfair burden on honest
taxpayers and diminish the public’s respect for the tax system.

        TIGTA recommended that the IRS require examiners to conduct and document
verification in the audit case files for unfiled employment tax and information returns and
the results of automated preliminary cash transactions analyses, including consideration
given to transferring the audit to the field if issues are identified. In addition, TIGTA
recommended that controls be expanded to ensure that examiners are properly
performing checks for unfiled employment tax and information returns and are
conducting preliminary cash transaction analyses so that corrective actions can be
identified and taken, if needed. By taking these actions, the IRS could increase
potential tax and interest assessments by $82.6 million over five years.



47
   Generally, if the excess contribution for the year is not withdrawn by the due date of the tax return
(including extensions), there is a 6 percent excise tax on the amount of excess contributions.
48
   This estimate is based on income from unreported interest on excess contributions to IRAs.
49
   Any portion of the required minimum distribution not taken by the individuals by the end of the year may
be subject to a 50 percent excise tax.
50
   A Service-wide Strategy Is Needed to Address Growing Noncompliance With Individual Retirement
Account Contribution and Distribution Requirements (Reference Number 2010-40-043, dated March 29,
2010).
51
   Significant Tax Issues Are Often Not Addressed During Correspondence Audits of Sole Proprietors
(Reference Number 2010-30-024, dated February 24, 2010).

                                                    20
       IRS management partially agreed with the recommendations by responding with
alternate corrective actions. TIGTA agreed that the IRS’s alternate corrective actions
may help reduce the number of significant tax issues that are not addressed during
correspondence audits of sole proprietors. However, the absence of a specific
commitment from the IRS requiring that examiners conduct a preliminary cash
transaction analysis during sole-proprietor audits is a concern. A preliminary cash
transaction analysis can identify considerable differences between expenditures and
income. These differences raise very serious questions about whether expenses may
be overstated on the return and whether there may be additional sources of income that
should have been reported.

         Efforts to increase voluntary taxpayer compliance and reduce the Tax Gap
continue to be the focus of many of the IRS’s tax compliance initiatives. Those
initiatives include the administration of tax regulations, the collection of the correct
amount of tax from businesses and individuals, and the oversight of tax-exempt and
government entities. One of the highest priorities, as identified by the IRS, is combating
tax avoidance transactions.52 There are tax returns with tax avoidance transaction
issues that do not warrant examination before taxpayer contact, a process known as
surveying. Surveying tax returns with a tax avoidance transaction issue without proper
justification or approval could be counterproductive to the IRS’s goal to combat abusive
schemes. In addition, this approach can erode the public’s confidence in the IRS’s
ability to enforce tax laws in an equitable and consistent manner. As a result, TIGTA
recommended that the IRS:

        Develop internal controls and train employees to ensure that justification is in the
        case files to survey tax returns with a tax avoidance transaction issue;
        Have an independent function review the tax return for concurrence with the
        group manager’s decision;
        Ensure that tax returns with tax avoidance transaction issues (surveyed as
        excess inventory) can be readily identified, and examinations are completed
        once taxpayers are contacted; and
        Develop procedures to ensure surveyed tax returns are included as part of the
        quality review process.

       IRS management disagreed with the two recommendations related to
strengthening existing controls and developing procedures to include surveyed tax
returns as part of the quality review process. TIGTA continues to believe that the
52
  A tax avoidance transaction is generally a specific tax transaction or promotion that reduces tax liability
by taking a tax position that is not supported by tax law. These strategies may be organized and
marketed, often through the Internet. The definition is not merely limited to activities that improperly
reduce tax, but may also include transactions that conceal assets and income.

                                                     21
breakdown in controls for the approval process indicates that tax returns surveyed
without documentation may have yielded additional revenue for the Federal treasury..

       The IRS also continues to face challenges in administering programs focused on
ensuring that tax-exempt organizations comply with applicable laws and regulations to
qualify for tax-exempt status. Because more than $15 trillion in assets are currently
controlled by tax-exempt organizations or held in tax-exempt retirement programs and
financial instruments, the IRS recognized in its most recent strategic plan that careful
oversight of the non-profit and tax-exempt sector is more important than ever before.53
The IRS also reemphasized the importance of maintaining a strong enforcement
presence in the tax-exempt sector to ensure that charitable organizations are compliant
with the Internal Revenue Code and not used for non-charitable or illegal purposes.

        TIGTA also has a strong oversight presence in the tax-exempt area. For
example, in a report issued in February 2010,54 we determined that while the IRS has
taken significant actions in response to our prior report to identify noncompliant
Section 527 political organizations,55 the IRS has not fully addressed noncompliance in
this area. One out of every four Forms 8872 (Political Organization Report of
Contributions and Expenditures) that we reviewed had incomplete or missing contributor
or recipient information, although some of the filings may later be deemed acceptable.
TIGTA recommended that the IRS: 1) conduct periodic reviews to determine whether
political organizations are submitting complete filings; 2) develop procedures for
reviewing responses and following up on nonresponses to notices, including assessing
additional tax or penalties as appropriate; 3) correct untimely and missing notices; and
4) revise forms and instructions to improve compliance. The IRS agreed with our
recommendations. In another example, we reported in Fiscal Years 2003 and 2005 that
the Tax Exempt and Government Entities Division’s approach to addressing fraud in the
tax-exempt sector was disjointed and needed improvement. The IRS took corrective
action to improve its fraud program and, in Fiscal Year 2009, we determined the number
of fraud cases in the tax-exempt sector referred for criminal development had
quadrupled. In addition, the IRS held individuals committing fraud through tax-exempt
entities accountable by making approximately $10 million in tax, fraud penalty, and
other assessments, with the potential to assess another $37 million. 56


53
   IRS Pub. 3744, IRS Strategic Plan 2009-2013 (April 2009) page 23.
54
   Improvements Have Been Made, but Additional Actions Could Ensure That Section 527 Political
Organizations More Fully Disclose Financial Information (Reference Number 2010-10-018, dated
February 4, 2010).
55
   Political organizations include political parties; campaign committees for candidates for Federal, State,
or local office; and political action committees. 26 U.S.C. § 527 (2006).
56
   A Corporate Approach Is Needed to Provide for a More Effective Tax-Exempt Fraud Program
(Reference Number 2009-10-096, dated July 6, 2009).

                                                     22
The IRS Needs to Monitor Paid Tax Return Preparers to Improve Compliance

        An increasing number of taxpayers are turning to tax return preparers for
assistance. In Calendar Year 2009, the IRS processed approximately 83.1 million
individual Federal income tax returns prepared by paid preparers. However, these
preparers were not required to meet or comply with any national standards before
selling tax preparation services to the public. A series of reports we issued strongly
suggested the need to regulate those who prepare Federal tax returns. These reports
led the IRS to launch its Return Preparer Review in June 2009. The following
December, after its own six-month study of the problem, the IRS announced a slate of
proposed reforms to improve oversight of the return preparer community. The reforms
proposed by the IRS include the development of requirements for registration,
competency testing, continuing professional education, ethical standards, and
enforcement. The new preparer requirements will take several years to implement and
will be phased in through Calendar Year 2014, at which time all preparers will be
subjected to suitability and competency tests. In the meantime, the IRS plans to
develop and implement a management information system to gather data on preparers
and establish a database to assist taxpayers in identifying qualified preparers. Further,
the IRS is planning to ensure that taxpayers understand the new requirements and the
importance of using only registered preparers to prepare their tax returns.

       Immediately after announcing the Return Preparer Review, the IRS established a
Return Preparer Implementation Project Office. The Project Office will support the IRS
in implementing key Return Preparer Program functions for the 2011 Filing Season and
lay the foundation for long-term Program institutionalization. The IRS held public
hearings, proposed rules around the new preparer requirements, and finalized
regulations requiring all paid preparers to register for a Preparer Tax Identification
Number (PTIN) in order to file tax returns after January 1, 2011.57 Preparers began
registering for the Program in September 2010.

        In September 2010, TIGTA completed the first review of its Return Preparer
Strategy. 58 We reported that when the decision was made to register paid preparers in
September 2010, the IRS had only begun to implement the Return Preparer Program
and had not established all Program requirements. The IRS also had not established
the organizational structure of the Return Preparer Program or determined how it would
test to ensure all preparers met the requirements. The IRS also has not determined
how it will enforce Program requirements and has not developed the system(s) and

57
 The Return Preparer Program requirements apply only to paid return preparers.
58
 It Will Take Years to Implement the Return Preparer Program and to Realize Its Impact (Reference
Number 2010-40-127, dated September 30, 2010).

                                                 23
processes necessary to administer and oversee the Program. Because the IRS does
not have the resources, systems, or processes in place to appropriately screen
applicants and conduct suitability checks on preparers applying for PTINs in Calendar
Year 2010, there will not be any assurance until Calendar Year 2014 that all paid
preparers meet Program requirements.

       TIGTA is monitoring preparers in the 2011 Filing Season to evaluate whether
they are compliant with the new PTIN requirements, as well as the new e-File mandate
that requires preparers who anticipate preparing 100 or more Federal individual or trust
tax returns during the year to start using IRS e-File.

Globalization Provides Challenges for the IRS

        A major shift in the tax administration environment has occurred since TIGTA
stood up in 1999. Global business is rapidly expanding, and the IRS Commissioner has
stated that combating offshore tax evasion is a priority. The Congress, the Department
of the Treasury, and the IRS are concerned about the International Tax Gap – that is,
whether U.S. and nonresident persons conducting cross-border transactions comply
with U.S. tax laws. The IRS has not estimated the size of the International Tax Gap, but
non-IRS estimates range from $40 billion to $123 billion59 annually. While there might
be overlap between the IRS Tax Gap estimate and the International Tax Gap estimate,
it is doubtful that the $345 billion Tax Gap estimate includes the entire International Tax
Gap. Recent legislative changes and Department of Justice and IRS activities are
increasing awareness about international tax compliance.

       Several recent actions illustrate the increased emphasis on international tax
administration. First, the IRS developed a plan called the “Servicewide Approach to
International Tax Administration.” The plan is designed to improve voluntary
compliance with international tax provisions and to reduce the Tax Gap attributable to
cross-border transactions. Second, the IRS conducted a voluntary disclosure program
to allow noncompliant taxpayers to self-report offshore accounts. The program resulted
in about 14,700 voluntary disclosures. Third, the Fiscal Year 2011 IRS budget
requested an additional $121 million for international tax compliance enhancements.
Fourth, the Fiscal Year 2012 IRS budget requested an additional $73 million for
international tax compliance enhancements. The IRS also has reorganized and
increased the size of the Deputy Commissioner (International) within the Large
Business & International Division. Successful strategic implementation requires aligning

59
 A Combination of Legislative Actions and Increased IRS Capability and Capacity Are Required to
Reduce the Multi-Billion Dollar U.S. International Tax Gap (Reference Number 2009-IE-R001, dated
January 27, 2009).

                                                 24
the strategy, structure, operational processes, performance measures, and human
capital components.

        Another factor that holds potential in addressing the International Tax Gap is
recent legislation on foreign-tax reporting and disclosure of financial assets, which may
require some taxpayers to file the Report of Foreign Bank and Financial Accounts
(FBAR) form and the new foreign-financial-assets disclosure statement with their
income tax return. These reporting requirements will potentially add to both taxpayer
burden and the complexity of tax law changes. Specifically, U.S. citizens, residents,
and domestic entities that have a financial interest in or signature or other authority over
a foreign-financial account that exceeds $10,000 in the aggregate at any time during the
calendar year are required to file the FBAR. New legislation will require individual
taxpayers with an aggregate balance of more than $50,000 in foreign financial assets to
file a disclosure statement with their income tax return. The IRS is working to address
the impact that these legislative requirements have on U.S. citizens and residents. 60

        Like the IRS, TIGTA is also making a commitment to provide comprehensive
oversight of IRS international programs and operations through the creation of a new
international programs office. The oversight of international tax administration requires
nimble, flexible, and proficient work teams that can provide both rapid responses and
comprehensive oversight of all aspects of the IRS’s international programs and
operations. A final strategy and implementation plan are being developed, but our goal
is to provide enhanced oversight of these programs.

        TIGTA recently reported that taxpayers excluded $19.2 billion in foreign earned
income on Tax Year 2008 tax returns. 61 Our review identified 23,334 tax returns with
erroneous foreign earned income tax exclusions totaling $675 million, with an estimated
revenue loss of $90 million. Over five years, TIGTA estimated erroneous claims could
result in a total revenue loss of $450 million. Some of the recommendations that TIGTA
provided were that the IRS:

        Review the tax returns of those individuals that TIGTA identified as incorrectly
        claiming the foreign earned income exclusion;
        Establish a unit to address taxpayers identified as erroneously claiming the
        foreign earned income exclusion;



60
   New Legislation Could Affect Filers of the Report of Foreign Bank and Financial Accounts, but Potential
Issues Are Being Addressed (Reference No. 2010-30-125, dated September 29, 2010).
61
   Improvements Are Needed to Reduce Erroneous Foreign Earned Income Exclusion Claims (Reference
Number 2010-40-091, dated August 16, 2010).

                                                   25
       Assess whether compliance project criteria can be used to identify erroneous
       claims during tax return processing; and
       Include programming to forward tax returns (both electronically filed and paper)
       for correction when individuals incorrectly compute their foreign earned income
       exclusion.

       IRS management agreed with most of the recommendations, but they stated that
substantial barriers prevented the implementation of certain recommendations at the
time of the review. TIGTA is concerned that the lack of corrective actions will allow
continued revenue loss.

Increasing International Threats Also Pose a Challenge

        In addition to risks to the system associated with employee integrity and physical
security, TIGTA has identified a risk to the IRS from crimes that are international in
scope. The migration of Federal tax administration operations into the electronic
environment increases internal and external vulnerabilities that can be exploited by
criminals. The relative anonymity of the Internet has provided a virtual breeding ground
for modern-day scams and schemes, which capitalize on IRS name recognition. In
recent years, our Office of Investigations’ Electronic Crimes and Intelligence Division
has observed a steady increase in cybercentric fraud schemes which either target
Federal tax administration directly, resulting in losses to the Department of the
Treasury, or indirectly through schemes involving the impersonation of IRS employees
to intimidate or entice victims into providing sensitive personal data, financial data, or in
some cases, payments directly to the scammers.

        Some of the most common countries of origin of these scams include Russia,
China, Romania, Nigeria, and Jamaica. Although the specifics of these fraudulent
schemes vary depending on the individuals or group behind them, broad categories
include IRS phishing, fraudulent IRS e-File websites, stock scams, lottery scams, and
Certificate of Foreign Status of Beneficial Owner for United States Tax Withholding,
Form W-8BEN scams. The common thread in these scams, which makes them
effective, is the repeated impersonation of the IRS. For instance, in IRS phishing
scams, victims receive an e-mail indicating that the IRS has identified them for a refund
or similar purpose. Victims are then asked to follow an included link which, if clicked,
will take the victim to a fraudulent website that is often an electronic copy of the actual
IRS.gov website frequently hosted on a compromised (hacked) web server. The victims
will be prompted to provide a great deal of personal information, including items such as
their Social Security Numbers, as well as financial data such as a credit card number or
bank account information and associated security features such as passwords. This
information is often bundled with similar information and then sold on the digital

                                             26
underground in a method analogous to how a stolen vehicle is processed in a “chop
shop.” Since 2008, more than 10,400 IRS phishing sites have been identified. TIGTA
and the IRS Office of Online Fraud Detection and Prevention (OFDP) work around the
clock to contact Internet hosting providers and request the shutdown of illegal sites,
which impersonate the IRS. These sites are normally taken off line within hours,
however, may remain online for a period of days, depending upon the cooperation of
the hosting provider, which in some cases, reside in countries with governments
unwilling to assist. OFDP provides data to TIGTA regarding this criminal activity which,
in concert with the U.S. Department of Justice, is evaluated for investigative potential
and pursued accordingly. All 10,400 sites identified have been shut down.

       Impersonations in lottery and stock scams involve demands for payments from
the “IRS” for capital gains and often target elderly victims who have been identified by
the scammers through commercial “sales lead” services. There have also been
documented instances involving fraudulent websites that impersonate IRS authorized e-
File services that are utilized by scammers to intercept and steal tax refunds.

Physical Security of Employees and Facilities Poses Major Challenges to the IRS

        Physical violence, harassment, and intimidation of IRS employees pose some of
the most significant challenges to the implementation of a fair and effective system of
tax administration. Threats of violence directed at the IRS have increased at the same
time that many individuals face financial challenges. The IRS is frequently a target for
citizens’ issues with taxation, authority, and government. From Fiscal Years 2008 to
2010, TIGTA’s Office of Investigations has experienced a 37 percent increase in the
number of threat and assault cases it has initiated – a total of 1,631 such cases in Fiscal
Year 2010 alone. From October 1, 2010 through March 31, 2011, the number of
initiated threat and assault investigations is 723. The number of investigations initiated
in Fiscal Year 2011, compared to the previous fiscal years of 2008 and 2009, indicates
that our threat and assault investigations are trending up.

        The growing threat to the safety of the IRS workforce was demonstrated in
February 2010 in Austin, Texas, when a pilot flew his plane into a building partially
occupied by the IRS, resulting in the death of an IRS employee.62 This attack illustrates
the environment in which the IRS is operating. Subsequent to the Austin attack, TIGTA
reviewed 251 complaints of threatening behavior wherein taxpayers made statements
referencing or supporting the Austin incident. Threat-related work trended upwards for
the remainder of the fiscal year. We are monitoring security measures that the IRS
initiated after the Austin incident at the majority of its buildings nationwide. TIGTA will

62
     TIGTA March 2010 Semiannual Report to Congress, page 31.

                                                 27
continue to place a priority on our oversight of IRS employee safety and physical
security.

The IRS Needs to Continuously Deliver Quality Taxpayer Service to Increase Tax
Compliance

        The Department of the Treasury and the IRS recognize that the delivery of
effective taxpayer service has a significant impact on voluntary tax compliance.
Answering taxpayers’ questions to assist them to correctly prepare their returns reduces
the need to send notices and correspondence when taxpayers make errors. Taxpayer
service also reduces unintentional noncompliance and shrinks the need for future
collection activity. The IRS continues to focus on the importance of improving service
by emphasizing it as a main goal in its strategic plan. It is also seeking innovative ways
to simplify or eliminate processes that unnecessarily burden taxpayers or Government
resources.

        Despite other options available to taxpayers, the telephone remains the number
one choice for taxpayers to make contact with the IRS. One of the IRS’s goals for
Fiscal Year 2011 is to increase taxpayers’ access to its toll-free telephone assistors,
which the IRS calls its Level of Service.63 Access to telephone assistors in the 2010
Filing Season was 75.3 percent. While the 2010 Level of Service was better than that
for the 2009 Filing Season (which was 64 percent), it was lower than the 2007 and 2008
Filing Seasons.

        The IRS has determined that the Fiscal Year 2011 $20.9 million budget initiative
will increase the toll-free base program budget to the level needed to achieve a 75
percent Level of Service.

       However, there has been no program increase since the IRS is currently
operating under a continuing resolution. Thus, the 2011 Filing Season goal is 71
percent. The last time the IRS achieved a Level of Service of more than 80 percent was
during the 2007 Filing Season, when the Level of Service was 83 percent.

        As of March 5, 2011, approximately 39 million taxpayers contacted the IRS by
calling the various Customer Account Services function toll-free telephone assistance
lines.64 IRS assistors have answered 8.4 million calls. The Level of Service is 71.7
percent, with taxpayers waiting approximately 11 minutes to speak to an assistor.
63
   Level of Service is the IRS’s primary measure of providing taxpayers with access to an assistor. It is
the percentage of callers who wish to speak to an assistor and who are able to speak with one.
64
   The IRS refers to the suite of 26 telephone lines to which taxpayers can make calls as “Customer
Account Services Toll-Free.”

                                                    28
More taxpayers are abandoning calls, and the IRS is also blocking more calls than last
year’s filing season. A blocked call occurs either because 1) no line is available at the
time the call arrives (i.e., the taxpayer receives a busy signal), or 2) the system is
programmed to block calls because the queue is beyond a pre-defined threshold (i.e.,
the taxpayer receives a recorded announcement to call back at a later time).

       Many taxpayers seeking assistance with their taxes choose to visit one of the
IRS’s 401 walk-in offices, called Taxpayer Assistance Centers. The IRS plans to assist
more than 6.5 million taxpayers in Fiscal Year 2011. Between October 1, 2010, and
February 26, 2011, the Taxpayer Assistance Centers served 2.3 million walk-in
taxpayers, which includes 1.2 million walk-in taxpayers for the 2011 Filing Season.

       As part of a 2011 Filing Season audit to assess the quality of customer service
the IRS provides to taxpayers who seek assistance when filing their tax returns, TIGTA
auditors posed as taxpayers and visited 26 Taxpayer Assistance Centers to ask tax law
questions. During the visits, assistors answered 35 of 35 (100 percent) tax law
questions accurately. However, auditors waited an average of 62 minutes before they
received assistance. The wait times ranged from none to four hours. On five
occasions, auditors who visited three different Taxpayer Assistance Centers were
turned away or denied services and asked to return another day.

       The Volunteer Program also plays an important role in achieving the IRS’s goal
of improving taxpayer service and facilitating participation in the tax system. TIGTA has
been conducting audits of this Program since the 2004 Filing Season when auditors,
posing as taxpayers, had 35 tax returns prepared with a zero percent accuracy rate.
Subsequently, the IRS has taken numerous actions to increase the accuracy of tax
returns prepared by volunteers, including the implementation of a quality assurance
program that is producing positive results. In the 2010 Filing Season, of the 39 tax
returns prepared for TIGTA auditors, 35 (90 percent) were prepared correctly.
However, during the 2011 Filing Season, as of March 5, 2011, auditors have had 9 (60
percent) of 15 tax returns prepared correctly.65 We will report our final results in August
2011.

      As part of its Volunteer Program, the IRS awarded matching grants to
111 organizations for the 2009 Filing Season and 147 organizations for the 2010 Filing
Season. However, the number of tax returns prepared by volunteers increased by only
1 percent (from 2.98 to 3.02 million) from the 2009 to the 2010 Filing Season. The
number of tax returns prepared is only one measure with which the IRS plans to gauge

65
 Improvements to the Volunteer Program Are Producing Positive Results, but Further Improvements Are
Needed to the Quality Assurance Process (Reference Number 2010-40-109, dated September 3, 2010).

                                                29
the Volunteer Program. The second measure is whether the Program also meets its
geographic and target populations. TIGTA conducted an audit of the Volunteer
Program in 2009 and reported that the IRS established the 2009 Filing Season as the
baseline for the Volunteer Program’s performance goals.66 We are conducting a follow-
up audit this year to evaluate the IRS’s success with the Volunteer Program.

Tax Law Changes Present Challenges to Filing Season Activities

        Changes to the tax law have a major impact on how the IRS conducts its
activities, how many resources are required, and how quickly the IRS can meet
strategic goals. Problems with tax return processing can delay refunds, affect the
accuracy of accounts, and generate incorrect notices. Along with the usual required
updates, the Housing and Economic Recovery Act of 2008,67 the Tax Relief,
Unemployment Insurance Reauthorization and Job Creation Act of 2010,68 and the
Affordable Care Act created additional challenges for the 2011 Filing Season.

       During the 2011 Filing Season, the IRS expects to receive 141 million individual
tax returns including 106 million (75 percent) electronically filed (e-Filed) tax returns.
Due to legislation enacted in late 2010, individuals filing Forms 1040, U.S. Individual
Income Tax Return, with Schedule A, Itemized Deductions, and those claiming certain
deductions had to wait until February 14, 2011, to file their individual tax returns. The
delay impacted both individuals who file via paper and e-File. The IRS reported that it
held approximately 6.5 million e-File tax returns that were transmitted prior to February
14th (not including e-Filed tax returns that tax preparers were holding). In addition, as
of February 11, 2011, the IRS had received and held for processing approximately
100,000 paper tax returns. The IRS has been able to efficiently process the paper and
e-Filed tax returns that were held.

       The IRS also has developed processes and procedures to assist individuals with
the First-Time Homebuyer Credit (Homebuyer Credit) repayment requirements.
Individuals who purchased a home between April 9 and December 31, 2008, and
claimed the Homebuyer Credit are required to begin repaying their credit on their 2010
tax return. To assist these individuals, the IRS issued notices to 1.5 million individuals
who must repay the credit over 15 years beginning in 2010. This notice will be sent to
individuals each year until the Homebuyer Credit is fully repaid. The notice lists the
amount of the credit the individuals received and the amount the individuals have to
repay as additional tax.
66
   Internal Controls for the Volunteer Income Tax Assistance Grant Program Are in Place but Could Be
Strengthened (Reference Number 2009-40-125, dated August 19, 2009).
67
   Pub. L. No. 110-289, 122 Stat. 2654 (2008).
68
   Pub. L. No. 111-312, 124 Stat. 3296 (2010).

                                                  30
       However, implementing some provisions included in new tax legislation is
presenting challenges for the IRS. These challenges are resulting in payments of
erroneous claims, and the inability to identify and prevent erroneous claims at the time
tax returns are processed. Specifically, as of March 4, 2011, we identified:

          54 individuals were allowed $331,557 in erroneous Homebuyer Credits based
          on an ineligible purchase date. These resulted from tax examiner errors;
          51,185 individuals were allowed in excess of $34.4 million in erroneous Non-
          Business Energy Property Credits; and
          166 (88 percent) of the 189 individuals who claimed the Qualified Plug-in
          Electric Drive Motor Vehicle Credit reported non-qualifying makes of vehicles.
          The amount erroneously claimed totals $498,688.

       In addition, the IRS recognized that the changes to the Adoption Credit (which
increased from $12,150 to $13,170 and is now refundable) could increase the risk for
erroneous claims and developed a strategy in an attempt to address these risks.
However, our analysis of the IRS’s Adoption Credit processing controls identified that
while the IRS requires individuals to attach documentation to their tax return in support
of an adoption, it does not have math error authority to deny the Adoption Credit if the
documentation is not provided. Without this authority, the IRS cannot deny the credit
during processing of the tax return, but must instead deny the credit post-processing
through the examination process, which is a much more costly and resource-intensive
process.

        On October 29, 2010, we alerted the IRS management and recommended that
they work with the Department of the Treasury to make a request for such authority
from the Congress. However, the IRS did not agree with this recommendation. As of
March 4, 2011, the IRS had received returns from 9,859 individuals claiming over $124
million in Adoption Credits. Of the 9,859 Adoption Credit claims, 6,974 (71 percent) of
the claims either had no required documentation attached to their tax return or the
documentation was invalid or insufficient. According to IRS procedures, each of these
claims will be sent to the Examination function for further review.

        Finally, as of March 4, 2011, the IRS had identified 335,341 tax returns with
$1.88 billion being claimed in fraudulent refunds and prevented the issuance of $1.82
billion (97 percent) of the fraudulent refunds being claimed. This represents a 181
percent increase in the number of tax returns identified for this same period during the




                                            31
2010 Filing Season. Furthermore, in a prior TIGTA review69 assessing the IRS
fraudulent tax return screening process we reported that the majority of tax returns
identified as being filed by prisoners are not sent to a tax examiner for screening to
assess the potential that the tax return is fraudulent. As of March 4, 2011, the IRS had
selected 63,501 tax returns filed by prisoners for screening. This represents an 88
percent increase in the number of prisoner tax returns identified for this same time
period during the 2010 Filing Season that were sent to a tax examiner to assess fraud
potential.70

OTHER RECENT TIGTA ACCOUNTABILITY OVERSIGHT

Recovery Act Oversight

        The Recovery Act was enacted on February 17, 2009, and presents significant
challenges to Federal agencies as they move to implement provisions quickly while
attempting to minimize risk and meet higher standards for transparency and
accountability. With its 56 tax provisions (20 related to individual taxpayers and
36 related to business taxpayers), the Recovery Act poses specific challenges to the
IRS as the Nation’s tax collector and administrator. These provisions will continue to
challenge the IRS over multiple filing seasons. Since September 2009, TIGTA has
issued 21 reports addressing various Recovery Act provisions. These reports have
identified 41 recommendations to address identified fraud, waste, and abuse involving
more than $189 million and affecting approximately 13.5 million taxpayers.

       As part of our Recovery Act oversight, we addressed the IRS’s administration of
the Homebuyer Credit. The Worker, Homeownership, and Business Assistance Act of
200971 revised, extended, and expanded the Homebuyer Credit to a broader range of
home purchases and added new documentation requirements. For example, long-time
residents of the same main home may claim the Homebuyer Credit if they purchase
new principal residences. New documentation requirements mean that taxpayers
claiming the Homebuyer Credit may not file their tax returns electronically and must file
paper tax returns. In Processing Years 2009 and 2010, the IRS reported issuing
Homebuyer Credits of more than $12.3 billion and $13.7 billion, respectively.

     We reported that three key controls were not in place before claims for the
Homebuyer Credit were processed. Specifically:


69
   Expanded Access to Wage and Withholding Information Can Improve Identification of Fraudulent Tax
Returns (Reference Number 2010-40-129, dated September 30, 2010).
70
   Interim Results of the 2011 Filing Season (Reference Number 2011-40-032, dated March 31, 2011).
71
   Pub. L. No. 111-92, 123 Stat. 2984 (2009).

                                                 32
        Documentation was not required to substantiate claims for the Homebuyer
        Credit;
        Filters to identify erroneous claims for the Homebuyer Credit were not
        implemented until late into the filing season, and the filters were missing some
        components; and
        Information provided on Form 5405, First-Time Homebuyer Credit and
        Repayment of the Credit, was not entered into IRS computers from paper returns
        and date of purchase information from paper and electronic returns was not
        immediately utilized to verify eligibility for the Homebuyer Credit.72

       IRS management initially stated that a requirement to supply documentation
during the processing of returns would be burdensome for the taxpayers and the IRS.
In addition, the IRS stated that it did not have math error authority to disallow the
Homebuyer Credit during processing even if it did ask for documentation but none was
provided. The IRS initially took no steps to obtain this math error authority. After the
issuance of TIGTA’s first interim report, the Congress passed legislation requiring
documentation for the Homebuyer Credit and providing the IRS with math error
authority to disallow the Credit if the documentation was not provided. In response to
TIGTA’s report, the IRS required taxpayers claiming the Credit after November 6, 2009,
to attach a copy of their Form HUD-1, U.S. Department of Housing and Urban
Development Settlement Statement, to support their claim. Because of the extensive
requirements for programming and the late passage of the first bill containing the
Homebuyer Credit, IRS management did not request or implement the transcription of
the Form 5405.

       Today we are releasing the results of the last phase of our review of the IRS’s
controls to identify erroneous claims for the Homebuyer Credit.73 The report discusses
additional erroneous claims for the Homebuyer Credit that were paid by the IRS.
Overall, we estimate that more than $513 million in potentially erroneous claims were
issued with no IRS scrutiny. Based on this and other TIGTA work, we believe the IRS
should require taxpayers to provide documentation to support eligibility for all refundable
tax credits. If such documentation is required, the IRS will also need math error
authority to deny other refundable credits when supporting documentation is not
provided.

       The Recovery Act also includes provisions that encourage the purchase of motor
vehicles that operate on clean renewable sources of energy. Individuals claimed more

72
   The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time
Homebuyer Credit (Reference Number 2009-41-144, dated September 29, 2009).
73
   Administration of the First-Time Homebuyer Credit Indicates a Need for Improved Controls Over
Refundable Credits (Reference Number 2011-41-035, dated March 31, 2011).

                                                     33
than $163.9 million in plug-in electric and alternative motor vehicle credits from
January 1 through July 24, 2010. As of July 24, 2010, TIGTA identified
12,920 individuals who electronically filed their tax returns and erroneously claimed
$33 million in plug-in electric and alternative motor vehicle credits. Further, 1,719 of the
12,920 individuals also erroneously reduced the amount of Alternative Minimum Tax
owed by almost $5.3 million. The IRS took corrective actions to reduce erroneous
claims when we brought process weaknesses to its attention. These actions have
resulted in an estimated $3.1 million in revenue protected.74

       Another significant provision of the Recovery Act is the Making Work Pay Credit,
which applied to most taxpayers with earned income. The Making Work Pay Credit was
advanced to taxpayers through their wages by a decrease in Federal income tax
withholding. The Making Work Pay Credit was in effect for Tax Years 2009 and 2010
and was implemented through new income tax withholding tables issued by the IRS.
We advised the IRS in a report issued in November 2009 that the reduced withholding
associated with the Making Work Pay Credit would make some taxpayers vulnerable to
under-withholding of taxes for Tax Years 2009 and 2010.75 Taxpayers who were
advanced more of the Making Work Pay Credit than they were entitled to owed taxes
when filing their Tax Year 2009 returns and may again owe when filing their Tax
Year 2010 tax returns.

        The IRS initiated significant outreach to inform taxpayers about the Making Work
Pay Credit and its potential effects. Despite these actions, TIGTA estimates that
approximately 13.4 million taxpayers were or will be negatively affected by the Making
Work Pay Credit when filing their returns for Tax Years 2009 and 2010. The changes to
the withholding tables did not take the following situations into consideration:
1) dependents who receive wages; 2) single taxpayers with more than one job; 3) joint
filers when both spouses work or either spouse has more than one job; 4) individuals
who file a return with an ITIN; 5) taxpayers who receive pension payments; and
6) Social Security recipients who receive wages.

       A survey of the taxpayers who may have been negatively affected by the
reduced withholding associated with the Making Work Pay Credit indicated that most
were not aware of the Credit or its effect on their taxes. Further, TIGTA estimates that
approximately 108,000 taxpayers may have been assessed the Estimated Tax Penalty
as a result of the Making Work Pay Credit and that an additional 1.02 million taxpayers
may have had their Estimated Tax Penalty amount increased. TIGTA recommended
74
   Revenue protected results from proper denial of claims for refunds, including the prevention of
erroneous refunds or efforts to defraud the tax system.
75
   Millions of Taxpayers May Be Negatively Affected by the Reduced Withholding Associated With the
Making Work Pay Credit (Reference Number 2010-41-002, dated November 4, 2009).

                                                 34
that in the case of future credits implemented through changes in the withholding tables,
the IRS consider including simplified withholding adjustment instructions on the IRS
website for specific scenarios that could result in under-withholding. We also
recommended the IRS identify those taxpayers who owed any Estimated Tax Penalty
as a result of the Making Work Pay Credit and notify them of their right to have the
portion of the Penalty related to the Credit abated. The IRS responded that it plans to
continue outreach efforts but declined to contact taxpayers that owed any Penalty
based on the Making Work Pay Credit. We are concerned about the IRS’s response
because we believe any portion of the Penalty associated with the Making Work Pay
Credit should be identified and abated.

Troubled Asset Relief Program Oversight

        As part of our broad-reaching oversight responsibilities, TIGTA reviewed the tax
compliance of participants in the Troubled Asset Relief Program (TARP).76 The TARP is
a large expenditure of public funds that required participants to indicate in agreements
with the Department of the Treasury that all material Federal taxes were paid. IRS
records showed 130 of the 558 institutions included in this audit had unpaid taxes
totaling $530.8 million when agreements were signed between the Department of the
Treasury’s Assistant Secretary for Financial Stability and the institutions’
representatives. However, IRS records also showed that 97 percent of the unpaid taxes
were resolved by December 2009.

        It is important to recognize that when the agreements were signed, the
Department of the Treasury was in the beginning stages of establishing the TARP. As a
result, the focus on stabilizing the financial system may have taken priority over
establishing the controls needed to identify unpaid taxes. At the time of our review, IRS
officials were collaborating across functional areas and adapting traditional collection
processes to accelerate the identification and resolution of unpaid taxes. It is equally
important to add perspective on the amount of unpaid taxes. According to IRS records,
the five publicly traded institutions that received the most TARP funds (of the institutions
included in this audit) voluntarily paid $16 billion of corporate income and employment
tax liabilities during the time their accounts contained $227 million of unpaid taxes.
Records also showed that, as of their respective agreement execution dates, the
accounts of those institutions contained nearly $17 billion of credits.




76
  Most Unpaid Taxes of Participants in the Troubled Asset Relief Program Have Been Resolved
(Reference Number 2010-30-050, dated April 28, 2010).

                                                35
TIGTA’s Budget Request and Justification

        The President’s Fiscal Year 2012 budget request for TIGTA strikes a balance in
addressing the critical needs of the Nation. Included in the request is an additional 29
Full-time Equivalents (FTE)77 provided for the oversight of the IRS’s implementation of
the Affordable Care Act. This budget authority totals $5,600,000 that will see that the
IRS implements the law effectively. It is important to note that no portion of this request
will be used to support traditional “overhead” positions such as human capital, finance,
or information and technology support. However, TIGTA’s budget reduces existing
programs by $3,474,000 below the President’s Fiscal Year 2011 request. These cuts
reflect the tough choices that the Nation’s current economic situation demands. TIGTA
is reviewing all of its functions and pledges to reduce only those programs that will have
the smallest impact on its critical mission. The President’s Fiscal Year 2012 budget
request for TIGTA of $157,831,000 meets both the challenges of implementing robust
oversight of the Affordable Care Act as well as the expectation that the Government do
more with fewer resources.

       Given the unique responsibilities TIGTA has among the Inspectors General,
specifically protecting the integrity of tax administration, TIGTA’s Fiscal Year 2012
budget request represents an increase of 1.5 percent above the Fiscal Year 2011
requested level. These requested resources will finance critical audit, investigative, and
inspection and evaluation services, protecting the integrity of tax administration on
behalf of the Nation’s taxpayers. TIGTA’s audit, investigative, and inspection and
evaluation priorities include:

       Adapting to the IRS’s continuously evolving operations and mitigating intensified
       risks associated with security, modernization, addressing the Tax Gap, and
       human capital challenges facing the IRS in domestic and international
       operations;
       Responding to domestic and foreign threats and attacks against IRS employees,
       property, and sensitive information;
       Improving the integrity of IRS operations by detecting and deterring fraud, waste,
       abuse, or misconduct by IRS employees;
       Conducting comprehensive audits, inspections, and evaluations that include
       recommendations for monetary benefits and enhancing the IRS’s service to
       taxpayers;
       Informing the American people, the Congress, and the Secretary of the Treasury
       of problems and progress made to resolve them; and


77
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year.

                                                  36
      Overseeing the IRS’s efforts to administer tax provisions of the Recovery Act and
      Affordable Care Act.

       In Fiscal Year 2012, TIGTA faces the challenge of adapting its oversight activities
to address increasingly complex and high-risk issues associated with IRS operations.
This is particularly true in adapting to the renewed focus of the IRS to close the
International Tax Gap. This effort will be in addition to TIGTA’s continuing work,
including assessing IRS tax compliance initiatives, evaluating the IRS’s efforts to
administer tax provisions in the Recovery Act and Affordable Care Act, detecting and
investigating fraud and electronic crime, reviewing procurement activities, safeguarding
taxpayer privacy, evaluating IRS human capital activities, and providing IRS program
reviews requested by the Congress and other IRS stakeholders.

         Since Fiscal Year 2001, TIGTA has achieved its performance and quality
expectations by implementing several efficiency-enhancing and cost-saving measures.
In addition, through incremental FTE losses and implementation of cost-cutting
initiatives in non-labor expense categories, TIGTA has been able to finance annual pay
and labor-related benefit increases (health care, pensions, and retirement) while also
maintaining the FTE level necessary to meet performance and quality expectations.
However, TIGTA’s efficiency-enhancing and cost-cutting initiatives are largely
exhausted. The impact of any budget reductions will fall almost exclusively on labor
and would affect TIGTA’s capability to provide comprehensive oversight of IRS
operations.

        Over the past 12 years, TIGTA’s employee population has declined 14 percent.
Authorized FTEs have declined from 1,000 in 1999 to a current level of 835.
Compounding the steady loss of authorized FTEs is the ongoing retirement wave.
Approximately 34 percent of all TIGTA employees will be eligible to retire by September
30, 2013. This is especially troubling since the responsibilities of TIGTA’s auditors,
investigators, information technology specialists, and systems specialists require unique
skill sets.

       The Department of the Treasury included a total Fiscal Year 2012 budget request
for TIGTA in the amount of $157,831,000. This request includes $2,692,000 for training
and $380,000 needed to support the Council of the Inspectors General on Integrity and
Efficiency.

      TIGTA also faces the challenge of meeting additional requests from the
Congress and other IRS stakeholders in a timely and efficient manner. In recent years,
TIGTA has reallocated resources to perform congressionally requested audits and to
comply with new statutory provisions.

      TIGTA’s FY 2012 request proposes eliminating certain reviews conducted to
comply with reporting requirements in the IRS Restructuring and Reform Act of 1998
(RRA 98). These statutory reviews yield little in the way of improving performance
measures and are of relatively low value. TIGTA would prefer to redirect resources

                                           37
applied to these reviews to conducting high-risk audits. TIGTA recommends legislative
changes, supported by the Department of the Treasury, eliminating reporting
requirements in the following areas:

        The requirement to report information regarding any administrative or civil actions
        related to Fair Tax Collection Practices violations in one of TIGTA’s Semiannual
        Reports. This pertains to Internal Revenue Code § 7803 (d)(1)(G). In TIGTA’s
        2009 and 2010 audits,78 we did not identify any Fair Tax Collection Practices that
        were substantiated. The IRS has taken action based on a prior TIGTA
        recommendation to more accurately code cases on the system it uses to track
        employee behavior that might warrant IRS management administrative actions.
        The requirement to review and certify annually that the IRS is complying with the
        requirements of 26 U.S.C. § 6103(e)(8) regarding information on joint filers. In
        TIGTA’s 2009 and 2010 audits,79 we found that IRS procedures provide
        employees with sufficient guidance for handling joint filer collection activity
        information requests. However, we cannot determine if the IRS is fully compliant
        because its management information systems do not separately record or
        monitor joint filer requests, and there is no legal requirement for the IRS to do so.
        The requirement to annually report on the IRS’s compliance with Internal
        Revenue Code §§ 7521(b)(2) and (c) requiring IRS employees to stop a taxpayer
        interview whenever a taxpayer requests to consult with a representative and to
        obtain their immediate supervisor’s approval to contact the taxpayer instead of
        the representative if the representative has unreasonably delayed the completion
        of an examination or investigation. In TIGTA’s 2009 and 2010 audits,80 we found
        that IRS procedures provide employees with sufficient guidance to follow in their
        day-to-day contacts with taxpayers and their representatives. We, however,
        continue to report on our inability to give an opinion on how well the IRS is
        complying with the legal restrictions on direct contract because of limitations in
        IRS’s management information systems.
        The annual reporting requirement for the remaining RRA 98 provisions should be
        revised to a biennial reporting requirement.

        A continued decline in personnel strength threatens TIGTA’s overall ability to
effectively fulfill its core mission. An inability to fill vacated positions with skilled

78
   Collection Employees Adhered to Fair Tax Collection Practices in Calendar Year 2008 (Reference
Number 2009-10-101, dated July 23, 2009) and Collection Employees Adhered to Fair Tax Collection
Practices From January 2009 Through September 2009 (Reference Number 2010-10-037, dated March
17, 2010).
79
   Fiscal Year 2009 Statutory Review of Disclosure of Collection Activity With Respect to Joint Filers
(Reference Number 2009-30-046, dated March 12, 2009) and Fiscal Year 2010 Statutory Review of
Disclosure of Collection Activity With Respect to Joint Filers (Reference Number 2010-30-026, dated
February 19, 2010).
80
   Fiscal Year 2009 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2009-30-054, dated March 24, 2009) and Fiscal Year 2010 Statutory Review of Restrictions on
Directly Contacting Taxpayers (Reference Number 2010-30-060, dated June 3, 2010).

                                                  38
investigators will reduce TIGTA’s enforcement capacity and limit its efforts to combat
IRS employee misconduct as well as to investigate external threats to the security and
integrity of IRS personnel and infrastructure. Anticipated increased attrition rates will
further reduce opportunities to devote resources to high-risk areas and thereby may
shrink financial benefits derived from audit recommendations and lessen TIGTA’s ability
to identify cost savings and protect the integrity of the Federal revenue stream.

        TIGTA’s Fiscal Year 2011 budget request of $155,452,000 represented an
increase of 2.3 percent above the Fiscal Year 2010 enacted level. The Department of
the Treasury included in TIGTA’s Fiscal Year 2011 budget request $2,572,000 for
training and $332,000 needed to support the Council of the Inspectors General on
Integrity and Efficiency.

        Overall, TIGTA has been very successful in generating financial benefits and
making critical recommendations to the IRS that greatly improve its revenue collection
efforts. For example, during Fiscal Year 2010, TIGTA achieved financial
accomplishments of more than $11.69 billion, representing a return on investment of
$74 for each dollar invested in TIGTA. Our financial accomplishments include cost
savings, increased revenue, revenue protection, taxpayer rights and entitlements,
inefficient use of resources, protection of dollars, and financial recoveries. Through
these accomplishments, TIGTA has consistently provided a return on investment. In
Fiscal Year 2008 and Fiscal Year 2009, our accomplishments yielded $14.68 billion,
respectively. As our accomplishments show, the need for TIGTA’s oversight has never
been greater. The following chart shows that TIGTA has provided these successful
results with funding that has remained relatively flat when adjusted for inflation.




                                           39
                                          Real and Nominal Budget History for Bureau with FTE Trend
                             160,000                                                                                                              950
                                                                                                                                       $154,925

                                                                                                                                                  900
                             150,000

                                                                                                                                                  850
      Budget (Thousands $)




                             140,000

                                                                                                                                                  800
                                                                                                                                      $127,733




                                                                                                                                                        FTE
                             130,000
                                       $124,198
                                                                                                                                                  750

                             120,000
                                                                                                                                                  700

                             110,000    911
                                                                                                                                                  650


                             100,000                                                                                                    835       600
                                       FY 2003      FY 2004   FY 2005    FY 2006   FY 2007   FY 2008   FY 2009   FY 2010    FY 2011 FY 2012
                                                                                                                           President's Treasury
                                                                                                                             Budget Request

                                              FTE                       Nominal Budget                   Inflation-adjusted budget (2003 $)




       We at TIGTA take seriously our mandate to provide independent oversight of the
IRS, including efficient and effective operation of our Nation’s tax system. I hope my
discussion of some of the major challenges facing the IRS and how TIGTA assists the
Congress in ensuring accountability over the IRS and its budget assists you with your
oversight duties.

     Chairwoman Emerson, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the opportunity to share my views.




                                                                                     40
     Appendix I




41
     Appendix II




42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
